No. 19-1104
IN THE

&uprtmt QCourt of tbt linfttb &tatt~
MARKJANUS,

Petitioner,
V.

AMERICAN FEDERATION OF STATE, COUNTY AND MUNICIPAL EMPLOYEES, COUNCIL 31,
ETAL.,
Respondents.
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit

CERTIFICATE OF SERVICE
I, Lauren Noto, of lawful age, upon my oath state that I did, on the 11th day of
September, 2020, serve an electronic copy of the SUPPLEMENTAL BRIEF FOR
RESPONDENT AFSCME COUNCIL 31 in the above-entitled case to all parties
required to be served, who consented to electronic service only:
Kwame Raoul
William L. Messenger
c/o National Right to Work Legal Attorney General of the State of Illinois
Jane Elinor N otz
Defense Foundation, Inc.
8001 Braddock Road, Suite 600
Solicitor General
Springfield, VA 22160
Frank H. Bieszczat
Assistant Attorney General
703.321.8510
wlm@nrtw.org
100 West Randolph Street, 12th Floor
Chicago, IL 60601
312.814.2234
Fbieszczat@atg.state.il.us

I certify under penalty of perjury that the foregoing is true and correct.

Executed on September 11, 2020

